OIG Audit Report

United States Marshals Service Intergovernmental Service Agreement for Detention Services with the Doña Ana County Detention Center, New Mexico
Office of the Inspector General



Executive Summary


The  United States Marshals Service (USMS) assumes custody of all individuals  arrested by federal agencies and is responsible for the housing and  transportation of prisoners from the time they are brought into federal custody  until they are either acquitted or incarcerated.  Each day, the USMS is responsible for housing  more than 47,000 detainees throughout the nation.  The USMS recognizes that it is dependent upon  state and local governments for the provision of detention space and services  for federal prisoners held for court appearances or for transport to a  designated facility for service of sentence.   Therefore, in order to house these pre-sentenced detainees, the USMS  executes contracts known as Intergovernmental Service Agreements (IGAs) with  state and local governments to rent jail space.   Seventy-five percent of the detainees in the USMS custody are detained  in state, local, and private facilities.
Title  18, United States Code § 4013(a), authorizes the Attorney General to make  payments from the Federal Prisoner Detention Appropriation for the necessary  clothing, medical care, guard services, housing, care, and security of  prisoners held in custody of a United States Marshal pursuant to federal law,  under agreements with state or local units of government.
An IGA  is a formal written agreement between the USMS and a state or local government  to house federal prisoners at a fixed per diem rate based on actual and  allowable costs for the same level of service provided to state or local  prisoners in a specific facility.   Transportation services for prisoners to and from court and medical facilities,  as well as medical guard services are allowable as a separate line item to the  IGA.  To request a per diem rate or an  increase to the current per diem rate, the USMS requires the local governments  to complete and submit a Form USM-243, Cost Sheet for Detention Services, to the local USMS office.  The local USMS  office will forward the cost sheet to the Prisoner Services Division for  review, evaluation, and approval.
The USMS awarded the Doña Ana County Detention Center  (DACDC) IGA No. 51-99-0117 on August 1, 1996.   According to the IGA, prisoners are housed in the DACDC at a rate of  $59.91 per jail day.1   According to the Doña Ana County performance  accounting system general ledger, during Fiscal Years (FYs) 2003 and 2004, the  DACDC was paid a cumulative total of $13,822,008 under the IGA.
The purpose of this audit was to determine if the jail  day rate is current and accurate; the costs for the detention and care of  inmates are allowable, allocable, and reasonable under OMB Circular A-87, Cost  Principles for State, Local and Indian Tribal Governments; and the amounts  billed are correct.2   Based on our audit of actual costs and daily  population, we determined that the DACDC’s accounting records do not support  the rate of $59.91 used to bill the USMS.   As shown in the following table we calculated the jail day rates to be  $42.39 and $32.43 for FYs 2003 and 2004 respectively.
Audit Determined Jail Day Rates3 


 
FY 2003
FY 2004


Total Expenses
$12,636,234
$12,853,866


Less: Audit Exceptions
$237,824
$104,161


Less: Offsetting Revenues
$317,772
$2,370,886


Equals: Allowable Costs
$12,080,637
$10,378,819


Divided by: Actual Jail Days
284,981
320,032


Equals: Audited Jail Day Rate
$42.39
$32.43


Source:  Doña Ana County financial records.
Our audit determined that the USMS overpaid the DACDC  by $5,231,812 for FYs 2003 and 2004 ($1,994,091 in FY 2003 and $3,237,721 in FY  2004).  We found that the large  discrepancies in the jail day rates were primarily due to increases in  occupancy, large offsetting revenues for federal reimbursements for the State  Criminal Alien Assistance Program (SCAAP) and the Southwest Border Prosecution  Initiative (SWBPI), and overall cost control by facility management. 
Based on the operating costs and average jail days for  FY 2004, we determined that adjusting the jail day rate to the FY 2004 audit  determined rate would result in $3,237,721 in funds put to better use  annually.  Therefore, the total  dollar-related findings are $8,469,533 ($5,231,812 in questioned costs + $3,237,721  in funds put to better use = $8,469,533).


 

Footnotes

A jail day is the equivalent of one person  incarcerated for one day and begins on the date of arrival, but does not  include the date of departure.
For more information on our objectives, scope,  and methodology, see Appendix II.
Differences in the total amounts are due to  rounding, e.g., the rounded sum of non-rounded individual numbers may  differ from the sum of rounded individual numbers.





 




Return to OIG Home Page